                 UNITED STATES DEPARTMENT OF EDUCATION
                            OFFICE OF THE INSPECTOR GENERAL




April 23, 2004

INSPECTION MEMORANDUM

To:            Phil Maestri
               Director, Management Improvement Team
               Office of Deputy Secretary

From:          Cathy H. Lewis
               Assistant Inspector General
               Evaluation, Inspection and Management Services

Subject:       Review of MIT ACTION Item #183 (ED/OIG I13E0010)

This memorandum provides the results of our inspection of one Action Plan item from
the Department of Education’s (Department’s) Blueprint for Management Excellence.
The EIMS group is examining several Action Plan items related to Human Capital. Our
objective is two-fold: 1) was the item completed as described; and, 2) as completed, does
the action taken help the Department towards its stated Blueprint objective. In this report,
we examined item Number 183 (completed on 12/18/02), concerning the development
and use of a manager survey after employee training.

Background:

The action required by item #183 was to:

        “Develop and use manager survey to assess changes in performance due to
        training.”

        The comments field on this item states, “Completed 12/18/02 – a pilot survey was
        conducted. The program will be institutionalized when an memo announcing the
        process is sent to all managers in January 2003.”

The first survey was distributed to 21 managers in December 2002. By January 2003, the
Training and Development Team (TDT) planned to have a functioning electronic version
to evaluate training offered in FY 2003 in both headquarters and the regions. The survey
was intended to be completed about 45-90 days after staff completed training.
OIG/Evaluation and Inspection         Inspection Report                    ED/OIG I13E0010




Objective 1: Did OM complete the actions needed to complete this item?

While TDT developed a post-training survey to measure employee performance, it never
effectively used the survey or the results.

TDT developed a post-training survey for managers containing four questions that
managers could fill in and email back to TDT staff. Of the first 21 surveys that went out,
TDT only received back three replies. A reminder was sent out, but TDT did not receive
any additional responses. Due to the lack of response, TDT did not feel they had enough
data to properly analyze and form conclusive results.

TDT never sent the planned memo to supervisors to inform them of the new evaluation
process. In addition, while they planned to send an announcement out to all managers and
employees via ED Notebook, this has never occurred. Rather, they have included
information about the follow-up evaluation in announcements about particular programs
that use the survey, such as the Tuition Reimbursement Program. At the current time,
TDT is receiving only a 15% response rate to the survey.


Objective 2: Did the actions completed help the Department to move towards its
stated Blueprint Objective (“To improve the strategic management of the
Department’s human capital”)?

As completed, the actions have not helped the Department to achieve the underlying
Blueprint Objective.

Post-training follow-up with a manager can be a useful tool in determining if learning
objectives have been achieved. However, the Department has not effectively
implemented the process to gather the information needed to conduct such an analysis.
TDT has sent out approximately 88 survey forms to managers since December 2002;
however, they have received back only 13 responses (15%), leading to insufficient
information on which to base any sort of meaningful analysis. Despite this low response
rate, OM has not taken steps to determine why the response rate is so low or how to
increase the amount of feedback. For example, it may be that managers would find the
survey more useful, and therefore would be more inclined to fill it out, if it were
conducted later, allowing more time for the manager to assess the training’s impact.
Training effectiveness is a key component of any training/development program and
suggested completion of this action item could be a useful component of an effective
human capital plan.

Departmental Response

We provided the MIT with a draft report that contained recommendations that would, if
implemented, support the MIT’s decision to list the action item as “completed.” The MIT
concurred with these recommendations but decided to “close” the item instead. “Closed”



                                             2
OIG/Evaluation and Inspection         Inspection Report                    ED/OIG I13E0010


indicates that the item is either no longer a priority for the Department or has been
overtaken by events. OM plans to gather input from Executive Officers, distribute
information to all managers about the training survey and its results, and annually analyze
and distribute the results. The recommended improvements will be added to the current
2004 Blueprint for Management Excellence. Therefore, we have removed our
recommendations from the report. OM’s response is included in its entirety as an
attachment.

Administrative Matters

We appreciate the cooperation given to us during the inspection. If you have any
questions or wish to discuss the contents of this report, please call me at 202-205-8639 or
Deb Schweikert, Director, Evaluation and Inspection Division at 202-205-5569. Please
refer to the control number in all correspondence relating to this report.




                                             3
                                     April 19, 2004



To:        Cathy H. Lewis
           Assistant Inspector General
           Evaluation, Inspection and Management Services

From:      Phillip Maestri, Director
           Management Improvement Team

Subject:   Draft Inspection Memorandum (3/19/04)
           Review of MIT Action Item #183 (ED/OIG I13E0010)
           “Develop and use manager survey to assess changes in performance
            due to training”

Thank you for the opportunity to review and comment on a draft version of this inspection
memorandum.

Comments on Background and Findings

The Blueprint action item number 183 was, “Develop and use manager survey to assess
changes in performance due to training.” As OIG found, the Department developed and
distributed a survey to managers to assess the impact of training. The completion of this
activity marked the completion of this Blueprint action item in December 2002.

In the course of this inspection, the OIG found that the survey has not been successful. The OIG
found that the response rate was low. The Office of Management (OM), which implemented the
post-training survey, reported that only 15 percent of the surveyed managers responded. OM
found that the response rate was so low that it could not form conclusions from the results.


Response to recommendations

Recommendation 1: Meet with the Executive Officers to determine how to make the survey
process more effective and revise the process consistent with customer feedback.

Recommendation 2: Send out information to all of the managers about the survey and how the
information collected will be used.

Recommendation 3: Gather and analyze results from the survey on an annual basis and share
this information with Executive Officers, managers, and training staff.
Response: We agree that further follow up with managers would improve the Department’s
understanding of how training benefits participants and their offices.

OM’s initial plans to respond to the findings of this investigation include: gathering input from
Executive Officers; distributing information to all managers about the training survey and how the
results will be used; and annually analyzing and reporting the results.

Recommendation 4: Until it completes these actions, action item #183 should be re-designated as
“open.” Alternatively, this item should be designated as “closed.”

The original Blueprint action item called for the development and use of a survey to assess
changed in performance due to training. Although the survey was developed and implemented, it
has not produced the information on changes in performance that ED sought. Therefore, the MIT
will revise the designation of action item number 183 to “closed” to reflect this finding. The
recommended improvements to the way ED evaluates training will be added to the current FY
2004 Blueprint.




                                            5
